-8409

i

NO.

ORIGINAL
Supreme Court, U.S.
FILED

JUN 1 9 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

BRENDA FORD WHITE - PETITIONER- (pro-se)
vs
0. L. MATTHEWS M. D. et al,- RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE MICHIGAN COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

BRENDA FORD WHITE
PETITIONER (PROSE)
30585 SANDHURST DR. APT. 207
ROSEVILLE, MICHIGAN 48066
(586) 773-0251

•\

* .
QUESTIONS PRESENTED

1. Must a court overlook a plaintiff's race in making a decision about her capacity and her
right to defend her mother's cortisone death/ murder case against doctors, hospitals, and
attorneys who made a poor legal decision motivated by race, political and economic gain (RICO)

2. Must a court overlook evidence of past disciplinary action against doctors, attorneys, and
court officials who made poor legal decisions.

3. Did the lower court abuse it's discretion in not allowing the entry of pertinent medical
records, which clearly demonstrate medical malpractice/ murder.

4. Must a court be the only authority responsible for the reshaping of statues to fit the new
world we live in to deter fraud and human abuse.

5. Must a court continue to have the authority to protect all vulnerable citizens from
exploitations.

6.Must a court bare the burden of interpreting what is dishonesty or misrepresentation of
facts that constitute penalty or not.

i

LIST OF PARTIES

All parties do not appear in the caption of this case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:

BETTIE RUTH FORD

(DECEASED)

WOOK KIM, M.D.,
JORAM MOGAKA, M. D.,
HARPER UNIVERSITY HOSPITAL,
ST. JOHN'S HOSPITAL AND MEDICAL CENTER, INC,

Defendants -Appellees

ii

TABLE OF CONTENTS

QUESTIONS PRESENTED

I

LIST OF PARTIES AND RELATED CASES.

ii

TABLE OF CONTENTS

iii

INDEX OF APPENDICES

iii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED.

1

STATEMENT OF THE CASE

2-25

REASONS FOR GRANTING THE PETITION

25

CONCLUSION

26

INDEX OF APPENDICES

APPENDIX A - Order of the Michigan Court of Appeals dated October 29, 2020, denying my
Application for Leave to Appeal. COA Docket No. 354308

APPENDIX B- Order of the Wayne County Third Circuit Court dated June22, 2020, denying my
Motion for Relief from Judgment. LC No. 13-013472-NH

APPENDIX C- Order of the Michigan Supreme Court, dated March 30, 2021 denying my
Application for leave to appeal. SC Docket No. 162310

iii

TABLE OF AUTHORITIES
CASES
Bulloch v United States, 763 F. 2d 1115,1121 (10, Cir.1985),........................................

23

"Kenner v C.I.R.,387 F.3d.689 (1968); 7 Moore's Federal Practice, 2d ed.,p.512H 60.23

23

Illinois v Fred E. Sterling, 357; III. 354; 192N.E.229 (1934).............................................

23

Allen F. Moore v. Stanley F. Sievers, 336 III. 316; 168 N.E.259 (1929).............................

23

Dunham v Dunham, 57 III. App. 475 (1894), affirmed 162 III. 589 (1896);.......................

23

Skelly Oil Co. v Universal Oil Products Co., 338 III. App 79, 86 N.E. 2d 875, 883-4 (1949);...23
Thomas Stasel v. The American Home Security Corporation, 362 III. 350; 199 N.E. 798 (1935)23
Liljeberg v health Services Acquistion Corp., 486 U.S. 847,108 S. Ct. 2194 (1988)

23

United States v Balistrieri, 779 F. 2d 1191 (7th Cir. 1985) (Section 455 (a)...............

23

Taylor v. O' Grady, 888 F.2d 1189(7th Cir. 1989)......................................................

24

Pfizer Inc. v Lord 456 F. 2d 532 (8th Cir. 1972),........................................................

24

Levine v United States, 362, U.S. 610, 80 S Ct. 1038 (1960),....................................

24

Offutt v United States, 348 U.S. 11,14, 75, S. Ct.ll, 13, (1954)..............................

24

United States v Sciuto, 521 F.2d 842 845 (7th Cir.1996)

24

STATUTES AND RULES
28 U.S.C. § 1257 (a)

1, 25

18 U.S.C. §201

1

28 U.S.C. § 455(a)

23- 24

Balistrieri, at 1202

24

re village of Willowbrook, 37 III. App. 2d 393 (1962)

23

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

The opinion of the Michigan Court of Appeals, the highest state court to review the merits of
my case appears at Appendix A to the petition and is unpublished.

JURISDICTION

The date on which the Michigan Supreme Court the highest state court to deny discretionary
review of my case was on March 30, 2021 a copy of the decision appears at Appendix C

The jurisdiction of this court is invoked under 28 U.S.C. § 1257(a).

CONSTITIONAL AND STATUTORY PROVISIONS INVOLVED

The UNITED STATES code in Title 18 U.S.C. § 201, provides for the prosecution of public
corruption in the United States of America.

1.

STATEMENT OF THE CASE

This case arises from the cortisone/ sepsis murder cover-up death of plaintiff Brenda White's
mother, Bettie Ruth Ford, who died at St. John's Hospital on October 16, 2008, Bettie Ruth Ford
suffered from Osteoporosis arthritis and she sought relief for her back pain by way of Steroid
Injections, administered by Dr. Wook Kim M.D., She was seen in Harper Hospital's Emergency
room on October 9, 2008, with the chief complaint of chronic neck and back pain, ankle
swelling, and numbness in her legs. Bettie Ruth Ford arrived at Harper Hospital at about 8:22
a.m. and she was prematurely discharged home at about 4:11 p.m. on October 9, 2008, with
her son and spouse by her side, she was unable to walk. Her primary care physician, O.L
Matthews M.D. never came to see her while she was in Harper Hospital's emergency room.
After Bettie Ruth Ford went home, her condition deteriorated rapidly, EMS was called, and the
EMS drivers noted that she had a fever. While she was in route to the hospital, she coded on
the ambulance, and she was revived. The EMS drivers did not put their sirens on until they were
close to the hospital. When she arrived at St. John's Hospital, the emergency room doctor
stated that she was down for 15 minutes, so she had to be placed on a ventilator, because she
did not have any brain activity. She was seen daily by the neurologist and no changes were
noted in her condition. After seven heart breaking days of witnessing my mother, Bettie Ruth
Ford's condition, the family decided to remove the ventilator. Shortly after removing the
ventilator, she made her transition on October 16, 2008. The cause of death stated on the
Death Certificate indicated "Cardiopulmonary arrest" caused by "Severe Arterial Occlusive
Disease" with the contributing cause of "Severe Arterial Occlusive Disease." Bettie Ruth Ford's
death was a direct result of the poor medical care administered by Dr. O.L Matthews, Dr. Wook
Kim, and was caused by the cortisone poisoning. Her death was a direct result of the lack of
adequate medical care administered by Dr. O.L Matthews, Dr. Wook Kim, and Dr. Joram
Mogaka, and from the cortisone poisoning. Defendant Dr. O.L. Matthews, was responsible for
causing Dr. Wook Kim to incorrectly administer the cortisone injections to Bettie Ruth Ford,
thereby contributing to the cause of her death and her ensuing emotional distress, mental
anguish, and anxiety. Defendant Dr. Wook Kim, was responsible for incorrectly administer of
the cortisone injections to Bettie Ruth Ford, thereby contributing to the cause of her death, and
her ensuing emotional distress, mental anguish, and anxiety. Defendant Dr. Joram Mogaka,
was responsible for incorrectly diagnosing the cause of illness and eventual death of Bettie Ruth
Ford, thereby contributing to her ensuing emotional distress, mental anguish, and anxiety. In
the Consultation notes in the St. John's medical records signed by Vaguar K. Siddiqui M.D. it
states the patient had fever and possible infection. On the second page of the St.John's
medical records Consultation notes it states "Apparently she presented to Harper Hospital with
leg weakness which started 2 days after the epidural steroid injection. The patient was seen at

2.

Harper for increasing leg weakness after the pain injection. She was discharged. According to a
medical report signed by Dr. Joram Mogaka, it specifies the DRG Code as "Septicemia or
Severe Sepsis W MV 96+ hours." The Principle Diagnosis lists "Staphylococcal Septicemia"
several lines down under the heading "secondary Diagnosis" appears DX Code: 99592 "Severe
Sepsis."

In March of 2012, plaintiff Brenda White, received documents dated March 30, 2012, from
attorney Victor A. Coen, from the Sommers Schwartz Law Firm, who was hired by plaintiff
Brenda White's, brother Patrick Ford. The documents stated please be advised that a
decedent's estate has been open with respect to the above-noted matter. This estate has been
commenced to investigate a possible cause of action for wrongful death, you will be advised on
all future developments as they occur.

Plaintiff Brenda White's father, Rembert Ford, the widower of Bettie Ruth Ford, nominated
Patrick Ford, his son, as personal Representative, and on March 20, 2012, Patrick Ford , was
appointed personal Representative of the estate of Bettie Ruth Ford.

On December 26, 2011, Plaintiff's brother, Patrick Ford, signed a retainer agreement for legal
services with the Sommers Schwartz, P.C. Law Firm, and he hired attorney Kenneth T. Watkins
as the family s attorney, and attorney Victor A. Coen, was the family's probate attorney.

Plaintiff Brenda White, found out in the last minute that Patrick Ford, attorney Victor A. Coen,
and attorney Kenneth T. Watkins, had abused their authority, after Wayne County Probate
Court sent an order to Plaintiff Brenda White, suspending powers of fiduciary to Patrick Ford.
Plaintiff found out the estate of Bettie Ruth Ford, was closed after probate court sent a second
order of administrative closing on 9/23/ 2013. Plaintiff Brenda White, was not advised on all
future developments. She found out that on October 1, 2013, attorney Kenneth T. Watkins, had
sent a letter of declination to Patrick Ford on November 20, 2012, stating not to be construed
as an opinion that you claim is without merit and we strongly urge you to immediately consult
with another attorney.

Attorney Kenneth T. Watkins, and the Sommers Schwartz Law Firm, stayed in the case 11
months, and he did not say that the case did not have merit. Kenneth T. Watkins, used a
3.

fraudulent negative opinion from Dr. Dean Dobkins, and concealed that Bettie Ruth Ford, had
been receiving cortisone injections until her time of death, and the St. John's records stated
she had a fever, septicemia or severe sepsis as the principle diagnosis.

On October 1,2013, plaintiff Brenda White, immediately filed an Request for Investigation in
the Michigan Attorney Grievance Commission for attorney misconduct on Attorney Kenneth T.
Watkins, and attorney Victor A. Coen, from the Sommers Schwartz Law Firm.

Plaintiff Brenda White found out that in the letter of declination sent to Patrick Ford ,on
November 20, 2012, attorney Kenneth T. Watkins used a fraudulent affidavit of merit from Dr.
Dean Dobkin, M.D. with two blacked out dates and a blacked out address on the affidavit of
merit, to come out of cortisone/ sepsis murder cover- up case. The Affidavit from Dr. Dobkin,
M.D. states "I see evidence of neither negligence nor malpractice in Ms. Ford's care nor
treatment in the emergency department of Harper Hospital. I do not believe any different care
at Harper Hospital would have led to a different outcome."

Dr. Dean Dobkin M.D. failed to mention in his fraudulent affidavit of merit statement, the fact
that Plaintiff's mother, Bettie Ruth Ford, had Sepsis that was covered up by Harper University
Hospital and himself. The hospital discharged Bettie Ruth Ford, without treatment, and she had
been receiving cortisone injections for several years until her time of death. Dr. Dean Dobkin
M.D. also did not use Bettie Ruth Ford's St. Johns Hospital's medical records to determine his
assessment in his fraud affidavit of merit statement. If Dr. Dean Dobkin M.D. had of used
Bettie Ruth Ford's St. John's medical records to make his assessment, he would had
mentioned the fact that plaintiff's mother, Bettie Ruth Ford, had Septicemia or Severe Sepsis
W MV 96 + Hours as the principle diagnosis after receiving epidural cortisone injections.
Dr. Dean Dobkin, M.D., is considered an insider who come into medical malpractice cases to
deceive and convince unprotected outsiders, who are plaintiff's, to compromise their integrity
and love for their family. Attorney Kenneth T. Watkins, and attorney Victor A. Coen, like satan,
will confuse, family members to throw their own case out. Once a family member through
endearing talk by attorneys, who are insiders, know that the family will not be able by design
to get help from other blocking attorneys. Then the blocking attorneys, will know that the
family are again desperate for someone they need to trust for help. And in a willing moment of
weakness, the family will sell their soul forever to take what they can get. This act is illegal, and
in the end is unethical, and no less than a murder hate crime against humanity.
4.

On October 2, 2013, plaintiff Brenda White, filed a petition to reopen estate, and on November
5, 2013, plaintiff Brenda White, was appointed personal representative of the estate of her
mother, Bettie Ruth Ford. Plaintiff Brenda White, found out that the statue of limitation was
going to run so, she filed the instant action on October 15, 2013. On January 14, 2014, former
Judge Susan D. Borman, from Wayne County Third Circuit Court, illegally dismissed plaintiff
Brenda White's case to cover- up the cortisone/ sepsis murder of Bettie Ruth Ford.

On December 31, 2014, plaintiff Brenda White's probate case regarding her mother, Bettie
Ruth Ford, the probate case Judge, Martin T. Maher, was changed to Judge David Braxton,
because Judge Martin T. Maher was no longer a Judge in the State of Michigan Wayne County
Probate Court. File no. 2012-775561-DE.

On November 5, 2018, plaintiff Brenda White, filed a notice of continued Administration, in the
State of Michigan Wayne County Probate Court, and a proof of service was also filed and sent
to all interested parties listed in the probate file, for case no. 2012-775561-DE. Plaintiff Brenda
White, paid for an updated letter of authority for personal representative of the estate of her
mother, Bettie Ruth Ford.

On January 3, 2015, Plaintiff, Brenda White, became aware that Kenneth T. Watkins, and the
Sommers Schwartz law firm, had been sued numerous times. Attorney Kenneth M. Mattson,
from the Plunket Cooney Firm, defended attorney Kenneth T. Watkins, and Sommers Schwartz
Firm. Attorney Robert G. Kamenec, attorney Laurel F. McGiffert, and their law firm Plunkett
Cooney, who are the defendants attorneys in this case, willfully concealed these improprieties
of material facts from plaintiff Brenda White. On January 15, 2015, plaintiff Brenda White, filed
a motion to add supplemental information to the Michigan Court of Appeals, in regards to
Sommers Schwartz numerous law suits. On January 28, 2015, the motion was denied by former
chief Judge Michael J. Talbot.

On February 20,2015, plaintiff Brenda White, filed a motion to amend the complaint to add
attorney Kenneth T, Watkins, attorney Victor A. Coen, and Sommers Schwartz P.C. Law Firm, to
the complaint. On March 9, 2016, the motion to amend the complaint was denied by the
Michigan Court of Appeals.
5.

Dr. Joram Mogaka, M.D., a defendant in this Case, was involved in another medical malpractice
wrongful death case, where a patient died of a narcotics overdose at Samaritan Nursing and
Rehbilitation, while she was recuperating from a recent orthopedic Surgery. This case was filed
in the Wayne County Third Circuit Court, case # 13-001836-NH, on April 17, 2015, Case name:
Williams v Mogaka. The Jury awarded plaintiff's estate three million dollars. This information
was concealed by the defendants attorneys in this case.

In a clia annual laboratory. Registry in 2011, defendant Dr. O.L. Matthews, M.D., was
sanctioned for a civil money penality on October 12, 2011, for condition level noncompliance.

A petition for writ of Certiorari was filed in this case named Brenda Ford White v O.L. Matthews
M.D.et al, in the United States Supreme Court on September 19, 2016, and placed on the
docket on September 22, 2016, as No. 16-6089, and the petition was printed.

Plaintiff Brenda White, and her now deceased husband Joseph White, filed two petitions for
writ of certiorari in the United States Supreme Court on over 21, attorneys, and both petitions
were filed on January 13, 2017, and docked on January 18, 2017, and printed under docket
numbers 16-7592 and 16-7593. Case name: Joseph White, et ux.. Petitioners, v Attorney
Grievance Commissioners of Michigan. All to no avail.

Plaintiff Brenda White, and her now deceased husband, Joseph White, hired a private
Investigator named Charles Martell, to investigate plaintiff cases and her husband's case.
Retainer Agreements were signed on contingent to pay Charles Martell and his wife Cynthia
Martell on settlement. Charles Martell was negatively working with attorney Brian Dailey. He
had a positive regard for the defendants attorneys to the extent that plaintiff and her
husband had to file a police report on Charles Martell and his wife Cynthia Martell, for refusing
to return evidentiary documents on all of their cases. Mr. Martell stated he has 8000 + pages of
documents. This is a civil matter according to the State of Michigan, Troy police department.
Report No. 15-26951.0n January 13, 2018, plaintiff Brenda White, and her now deceased
husband Joseph White, filed a complaint on Charles and Cynthia Martell for Unauthorized
practice of law with the State Bar of Michigan. On March 30, 2018, Laurin C. Thomas answered
with a UPC File No. 18-UP-02. She stated that the State Bar of Michigan administratively closed
the complaint, because it does not appear to be a violation of the UPL Statue, MCL 600.916 as
interpreted by the Michigan Supreme Court. The matter has been administratively closed.

6.

Plaintiff Brenda White found fraud statements on the Wayne County Third Circuit Court
register of action in her case named: Brenda Ford White v O.L. Matthews, M.D., et, al that
state: Statistical Ciosures-1/10/2014 - Uncontested/ Default/Settled- Case Type Medical
Malpractice - NH- Case Status: 01/14/2014 Final. Case No. 13-013472-NH. This information was
found after plaintiff Brenda White, found the same fraud statements on the Macomb County
Circuit Court public register of action in her other case on June 27, 2017. In the Brenda White v
Southeast Michigan Surgical Hospital case, the public register of action states: Case Number
2012-002017-NH Case type: NH- Medical Malpractice- File Date: 5/03/2012- Party Type:
Defendants Dr. Gary Docks and Southeast Michigan Surgical Hospital- Case Status: ClosedDisposition: Uncontested/Def/Settled. Case Number 2012-002017-NH Case Type: NHMedical Malpractice- File Date: 5/03/ 2012- Party Type: Brenda White Plaintiff- Case Status:
Closed- Disposition: Uncontested/Def/Settled. The public register of action also states: Case
Disposition Uncontested/Def/Settled: Date 8/20/12- Case Judge: Edward A. Servitto Jr. This is
not listed on the court register of action in this case. This is clearly fraud on the court, plaintiff's
cases was never settled or resolved. All attorneys that Brenda White, contacted refused and
conspired not to take her cases. This information represents a fallacy to the public that only
benefits insurance companies and special interest groups. This clearly shows that this action
was done with malice and forethought to benefit special interest groups. It was also done to
prevent insurance companies from having an increase in insurance rates. This is abuse towards
pro se litigants, that only benefits people in administrative authority. To show a pattern of
corruption, plaintiff7s now deceased husband Joseph White, found fraud in his case and a client
named Tiffany Wilson's case, after his wife, Brenda White, found fraud in her cases. The cases
are in the Wayne County Third Circuit Court. The case names are: Joseph White v Detroit East
Community Mental Health et al, on the Court register of action it states: Case: 11-011126-CZ Dismissed by party- 02/07/ 2013- File Date: 09/12/2011 -Case Status: Final 02/07/2013 final
and Tiffany Wilson v Carl Coleman et, al States: Case: 12-006875-CZ - Statistical Closure
01/18/2013- Uncontested/Default/ Settled- File Date: 05/22/2012- Case Status: 01/ 24/ 2013,
Final. Joseph White never dismissed his case, he had been in his case seven months short of a
decade until his time of death on February 7, 2021, and his case has never been resolved.
Tiffany Wilson's case has never been settled or resolved, and she did not have a replicable
attorney.

Plaintiff Brenda White, filed a motion for relief from Judgment on August 15, 2017, because
plaintiff found fraud on the Wayne County Third Circuit Court register of action, that states
Uncontested / Default/ Settled- Case status 01/14/2014 Final. Judge Leslie Kim Smith,
dismissed plaintiff's motion hearing, and she issued an order denying plaintiff's Motion, stating
that plaintiff's motion was based on mere allegation. Judge Leslie Kim Smith, is continuing to
ignore plaintiff proof, and she continues to cover up a cortisone/sepsis murder case. This is a
crime and more fraud on the court.
7.

6

»

t

1

On October 16, 2018, Former Macomb County Clerk/ Register of Deeds Karen Spranger, visited
plaintiff Brenda White, and her husband Joseph White, in their home to discuss Court and
Union Corruption. On August 29, 2019, Former Macomb County Clerk/ Register of Deeds Karen
Spranger, came to plaintiff's home a second time and she talked for 5 Vi hours. She mentioned
that her intentions was to clean up corruption in Macomb County Circuit Court, but she stated
that she was under scrutiny. She also stated the system is broken. She mentioned that she was
going to file a complaint with the Secretary of State Jocelyn Benson, and she hopes to get her
job back. She also stated that she was going to send a letter to Attorney General Dana Nessel.

On November 30, 2017, Karen A. Spranger, Former Macomb County Clerk/ Register of Deeds
did a reply to Investigation report, and she stated she found Fraud on The Court, she made
statements that she found that the Macomb County Circuit Court, Wayne County Third Circuit
Court, Michigan Court of Appeals, and Michigan Supreme Court, are all complicit in fraud to
deny meaningful access. Fraud was found by former Macomb County Clerk /Register of Deeds
Karen Spranger in five cases and they are: Benda White v Southeast Michigan Surgical Hospital
and Dr. Gary Docks; Brenda R. White v EDS Care Management LLC and Travelers Indemnity
Company; Brenda Ford White v O.L Matthews M.D. et al; Joseph White v Detroit East
Community Mental Health, et al,; and Tiffany Wilson v Carl Colman et al,. She found that all of
the cases listed above was improperly and done with obvious intent, and it caused
inappropriate register of action false statements. Former Court Clerk Karen Spranger, stated
that plaintiff Brenda White, and her husband Joseph White, were both charged illegal filing
fees in their cases in this unusual circumstances of fraudulent dismissal, by the Michigan Court
of Appeals, Michigan Supreme Court Clerk's office, Judge Michael J. Talbot, Judge Elizabeth L.
Gleicher, Judge Joel P. Hoekstra, District Commissioner Mark Stoddard, attorney Linda
Garbarino, and attorney Robert G. Kamenec.

On October 24, 2017, Plaintiff Brenda White, mailed two checks to the Michigan Court of
Appeals Grand Rapids, Michigan office, to Chief Commissioner Mark Stoddard. Plaintiff was
given a post office receipt with an expected delivery date of Thursday October 26, 2017. The
Checks was for two cases that was filed in the Michigan Court of Appeals. The case names are:
Brenda Ford White v O.L. Matthews M.D. et al,; Brenda White v Southeast Michigan Surgical
Hospital and Dr. Gary Docks. The Michigan Court of Appeals, sent plaintiff an order for both
cases stating the filing fees was due on or before November 8, 2017, failure to comply with this
order will result in the dismissal of the appeal. On Friday October 27, 2017, plaintiff Called
Chief Commissioner Mark Stoddard, and asked him if he had received the checks, and he said
he had not received the checks. Plaintiff called Chief Commissioner Mark Stoddard, a second

8.

time on Monday October 30, 2017, and Mr. Stoddard, again stated he had not received the
checks. Plaintiff husband went to the Roseville, Michigan Post office and he asked them to take
a written Report/ Complaint from him, and he was informed it was not possible. On October 31,
2017, Plaintiff s now deceased husband went to the Roseville Police Department and he filed a
Police Report, and he was given a complaint number of 170031301-Offense Suspicious
Circumstances. Plaintiff called the Roseville post office for the matter to be investigated,
because it involved mail tampering, and wire fraud, and illegal filing fees was charged on two
cases that were filed in the Michigan Court of Appeals. Plaintiff Brenda White, made calls to
the Michigan Court of Appeals on October 31, 2017, and November 1, 2017, and plaintiff spoke
to a clerk named Kate, and she continued to say the checks had not been received. On
November 1, 2017, plaintiff Brenda White, called chase bank to put a stop payment on both
checks. On November 2, 2017, Plaintiff called Mark Stoddard, again and he stated the checks
had not been received. Plaintiff then informed Chief Commissioner Mark Stoddard, that a stop
payment was placed on the old checks, and Mr. Stoddard, was also informed that two new
checks were taken to the Michigan Court of Appeals Office in Troy Michigan. On November 6,
2017, a special agent from the Office of Inspector General named Aaron Bowen, called to do a
further Investigation in regards to plaintiff's police report and Post Office verbal Complaint
taken by the Post Office that was on file. Agent Bowen, also left plaintiff a contact number. On
November 6, 2017, Plaintiff called Chief Commissioner Mark Stoddard, to inform him that
Agent Aaron Bowen, had called to follow up on the complaint that was filed on October 31,
2017. On November 8, 2017, Plaintiff Brenda White, received two suspicious letters from Chief
Commissioner Mark Stoddard, with the original checks attached to the letters. All updated
information and documents was given to the Roseville Police Department and added to the
original police report.
This criminal act done by Chief Commissioner Mark Stoddard, from the Michigan Court of
Appeals, was done to impede justice in plaintiffs cases named: Brenda Ford White v O.L.
Matthews M.D. et al,; Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks,
and to dismiss plaintiffs cases for not paying an illegal filing fee, by the due date of November
8, 2017.
Michigan Supreme Court Chief Clerk Larry S. Royster, did the same criminal act as Chief
Commissioner Mark Stoddard did, tampering with mail involving the U.S. Postal Service.
Plaintiff mailed an illegal filing fee check on October 29,2018, to the Michigan Supreme Court
to the correct address, plaintiff had a post office receipt with an expected delivery date of
Wednesday October 31, 2018. The order dated October 11, 2018, stated that the case would
be Administratively Dismissed if the filing fee was not paid within 28, days. The name of the
case is: Brenda R. White v EDS Care Management LLC and Travelers Indemnity Company, SC:
158078. On Tuesday November 6, 2018, Plaintiff contacted the Michigan Supreme Court Clerks
Office, and she talked to Chief Clerk Larry S. Royster, and he said in an audio recording that

9.

they did not receive the check and directed plaintiff to send anew check and certify the mail,
and if he receive the original check he would send it back. Plaintiff and her husband, decided
that it was necessary to take an almost two hour drive to Lansing Michigan, to hand deliver
another check, because we did not trust Larry S. Royster, and the illegal filing fee was due on
November 8, 2018. On November 7, 2018, plaintiff call the Michigan Supreme Court at 11:07
A.M. and talked to the administrative assistant Tess Haadsma, and Tess, stated in an audio
recording that the check had not been received. Plaintiff told her that she would have to come
up with the check, because plaintiff knew the court had the check. So, On November 7, 2018, at
12:16 P.M. plaintiff called the Michigan Supreme Court back, to ask the court again about the
mail, to determine if she would have to put a stop payment on the original check, and Chief
Court Clerk Larry S. Royster, said in an audio recording he had received the check in the mail.
He asked plaintiff, if she wanted him to tear up the original check, or if she wanted him to mail
the original check back to her. So, Plaintiff directed him to send the original check back to her in
the mail, and he did. This is criminal act done by Michigan Supreme Court Clark Larry S.
Royster, and it was done to impede Justice, and to dismiss plaintiff's case for not paying illegal
filing fees by the due date of November 8, 2018, in the Brenda R. White v EDS Care
Management LLC, and Travelers Indemnity Company Case.

On November 15, 2017, In the case named Brenda Ford White v O.L. Matthews M.D. et al,
the Michigan Court of Appeals issued an order that states: The Court orders that the
application for leave to appeal is Denied for lack of merit in the grounds presented. This is a
statement that the Michigan Court of Appeals has used over and over and over again to delay,
deny, defend, to perpetuate injustice, while allowing defendants attorneys to threaten plaintiff
Brenda White, with sanctions to cover up crimes, while charging plaintiff Brenda White, illegal
filing fees, to chase her out of court. This Michigan Court of Appeals has waived the filing fees in
this case under docket: 320174

On September 12, 2018, Michigan Supreme Court mailed two orders to Plaintiff Brenda
White, for her Cases named: Brenda Ford White v O.L. Matthews M.D et al,; Brenda White v
Southeast Michigan Surgical Hospital and Dr. Gary Docks. The Michigan Supreme Court has
called plaintiff Brenda White, a vexatious litigator after plaintiff found Uncontested/ Default/
Settled on the trial court dockets in both cases in the Wayne County Third Circuit Court,
docket: 13-013472-NH, and the Macomb County Circuit Court, docket: 2012-002017-NH.
Attorney Robert G. Kamenec, who is in both cases filed a motion to dismiss both cases, to cover
up crimes in both cases, and to run a pro se litigant out of court. Attorney Linda Garbarino,
filed a motion to dismiss for defendants Harper University Hospital, in the Brenda Ford White v
O.L .Matthews M.D. et al, case to cover up a crimes, and to run a pro se litigant out of court.

10.

Plaintiff Brenda White, has too much evidence to be a vexatious litigator.

After Plaintiff Brenda White, noticed for two months, that Michigan Supreme Court September
12, 2018, Orders were not on the public trial court docket. Plaintiff called Chief Court Clerk
Larry S. Royster, about the orders, and Larry S. Royster stated in an audio recording on Tuesday
November 20, 2018, that he sent the Orders from both cases to the trial courts. On November
21, 2018, plaintiff called attorney Richard M. Lynch, Wayne County Third Circuit Court
Corporate Counsel, to ask him about a September 12, 2018, Michigan Supreme Court order that
was not on the public register of action in the Brenda Ford White v O.L. Mathews M.D. et a I,
case, and Mr. Lynch confirmed in an audio recording on November 21, 2018, that the order was
not on the register of action. Mr. Lynch later made an entry on the public register of action on
11/21/2018, of a Higher Court Order/ Decision Received by Circuit Court without a new Order
attached. Docket: 13-013472-NH. This is clearly more deceptive practice that presents more
fraud on the court.

The Michigan Supreme Court September 12, 2018, Order has not been sent to the Macomb
County Circuit Court and is not on the register of action, and this has been confirmed by a clerk
named Erica, in an audio recording on Wednesday November 21, 2018, in the Brenda White v
Southeast Michigan Surgical Hospital and Dr. Gary Docks, LC: 2012-002017-NH case.

On January 23, 2018, and January 24, 2018, WDIV-TV Local 4 news Reporter Jason Colthorp,
did a news story on the news, and covered up the details in the cases named: Brenda Ford
White v O.L. Mathews M.D. et al,; Brenda White v Southeast Michigan Surgical Hospital and Dr.
Gary Docks; Brenda R. White v EDS Care Management LLC and Travelers Indemnity Company.
In the Joseph White v Detroit East Community Mental Health and Gateway; and Tiffany Wilson
v Carl Coleman et al,; local 4 news on several occasions aired a story in 2016, on Detroit East
Community Mental Health and Gateway, and local 4 news covered up both of their cases.
Jason Colthorp also did a fraud news story. He stated in the headline of the news story that
Employee says Macomb County Clerk Spranger pressured her to illegally alter record, and he
was referring to plaintiff Brenda White's case in Macomb County Circuit Court.

Plaintiff and her now deceased husband Joseph White, made numerous telephone calls to
WDIV-TV Detroit news reporter Jason Colthorp, and WDIV Local 4 news station asking them to
correct a news story that aired on January 23, 2018 and January 24, 2018. To no avail.

11.

On August 23, 2018, Plaintiff Brenda White, and her now deceased husband Joseph White,
gave a copy of a complainants statement with exhibits in regards to a news story involving
Jason Colthorp, Karen Spranger, and Lisa Emerson to Kathy Smith former Macomb County
Circuit Court Clerk/ Register of Deeds, and she turned the complainants statements with
exhibits over to Macomb County Circuit Court Corporate Counsel, John Schapka. Also, on
August 23, 2018, Plaintiff Brenda White's husband, gave a copy of the complainants statement
with exhibits to Deputy Miller, at the Macomb County Sheriff's Office, and deputy Miller gave
Brenda White's husband Joseph White, a complaint # of 63058-18. Deputy Miller, stated he
was going to put the complainants statement with exhibits in Detective Jeff Pintal's box. On
October 1, 2018, Plaintiff Brenda White's husband, called Detective Jeff Pintal, and he left a
voice message for Detective Jeff Pintal, to return his call. On October 2, 2018, Detective Jeff
Pintal, returned plaintiffs husbands call. Detective Pintal, stated he had not seen the
complainants statement with exhibits, and he could not find the complainants statement with
exhibits. Plaintiffs husband asked Detective Pintal, if he wanted him to bring him another copy
of the complainants statement with exhibits, and Detective Pintal, said no, because he would
have to locate the original complainants statement with exhibits. On Friday October 26, 2018,
Detective Pintal called plaintiffs husband to tell him he had found the complaint. He informed
Plaintiff and her husband that they could file an addendum to their statement. Plaintiff
Brenda White, and her husband Joseph White, met with a Macomb County Sheriff by the name
of Mark Tillman, on Saturday October 26, 2018, at the Macomb County Sheriff's office. Sheriff
Tillman gave plaintiff Brenda White, and her husband, a new complaint number of 81302-18. A
police report was done on October 27, 2018, with a complaint # of 2018-00081302. On
November 15, 2018, Plaintiff Brenda White and her husband Joseph White, met with
Detective Jeff Pintal, from Macomb County Sheriffs Office to turn over more documents to
him regarding their cases. Detective Jeff Pintal, told plaintiff Brenda White and her husband
Joseph White, he was going to turn all of their documents over to Macomb County Prosecutor
Eric Smith.

On August 31, 2018, Plaintiff Brenda White, and her husband Joseph White, sent a copy of
the complainants statements to Richard M. Lynch General Counsel of the Wayne County Third
Circuit Court. On September 7, 2018, Mr. Lynch sent a letter addressed to Plaintiff Brenda
White and husband Joseph White, stating he received our mailing that included Complainants
Statements dated August 23, 2018. After reading your documents, that I must again advise you
that the issues presented are outside the scope of my office and of the Third Judicial Circuit of
Michigan. Consequently, I take no action on this matter and consider it closed. On September
7, 2018, attorney Richard M. Lynch stated in an audio recording that the documents given to
him address issues in Macomb County Circuit Court. Plaintiff has a copy of the audio recording
dated September 7, 2018, and attorney Richard Lynch is breaking the law.

12.

On September 25, 2018, Plaintiff's now deceased husband Joseph White, received a
threatening letter from WDIV/ Jason Colthorp attorneys BERNARDI, RONAYNE & GLUSAC
regarding a cease and desist. Joseph J. Bernardi stated in his letter dated September 25, 2018, If
you fail to cease and desist from making telephone calls to, leaving voicemail messages for and/
or sending email messages to WDIV and its employees, or if you have contact with WDIV and its
employees, I will be forced to take appropriate legal action against you and will seek all
available damages and remedies. On October 1, 2018, Plaintiff Brenda White, and her husband
Joseph White, sent a letter to attorney Joseph J. Bernard! requesting a correction in a news
story that aired on WDIV on January 23, 2018 and January 24, 2018, a copy of attorney Joseph
J. Bernardi's threatening cease and desist letter, and a copy of Plaintiff Brenda White and her
husband Joseph White's letter addressed to Joseph J. Bernardi was mailed to Detective Pintal
on October 1, 2018. In a telephone contact on October 2, 2018, Detective Pintal, from Macomb
County Sheriff's Office, stated that WDIV attorneys could not send a threatening letter
regarding a cease and desist without an order from a judge.

On October 1, 2018, Plaintiff Brenda White and her husband Sent attorney Joseph J. Bernardi,
from Bernardi, Ronayne, & Glusac, a copy of a complainants Statement with exhibits, and on
October 29, 2018, attorney Joseph Bernardi, responded in a letter stating: Dear Mr. and Mrs.
White: your letter of October 1, 2018, claims that you filed a Complainants Statement with
exhibits, with the Macomb County Circuit Court Clerk and the Macomb County Sheriff's office.
If, and when we receive any inquires from any governmental agency we will respond
accordingly. Absent any governmental inquiries, there is nothing further to add. Sincerely,
Joseph J. Bernardi.

On August 14, 2019, a Request for Investigation was filed by Brenda White and Joseph White,
with the Michigan Attorney Grievance Commission on attorney Joseph J. Bernardi, the attorney
who represents WDIV/TV Local 4 News, in regards to a news story that aired on January 23,
2018, and January 24, 2018, where news reporter Jason Colthorp did a fraud news story
involving former Macomb County Clerk/ Register of Deeds Karen Spranger, Chief Clerk Lisa
Emerson. Macomb County General Counsel John Schapka, Macomb County Board of
Commissioners, and plaintiff Brenda White and Joseph White.

On October 8, 2019, the Michigan Attorney Grievance Commission responded in a letter that
states: Personal and Confidential Joseph and Brenda White AGC File No. 19-2255, Dear Mr. and
Mrs. White: This office received your Request for Investigation, however the allegations in your
complaint are insufficient to warrant review by the Commission. Accordingly, after careful

13.

review by the staff, this matter, is being closed under the authority of the Grievance
Administrator pursuant to Michigan Court Rule 9.112(C)(l)(a.) your request for Investigation
has been thoroughly reviewed. The facts as you have stated in your Request for Investigation
do not constitute professional misconduct. We regret that we can be of no further assistant to
you. Joseph John Bernardi has been provided with a copy of your Request for Investigation. If
my staff or I can be of service to you in the future, please do not hesitate to contact again. Very
truly yours Cynthia C. Bullington, Assistant Deputy Administrator.

On December 3, 2018, Plaintiff Filed her second Petition for Writ of Certiorari in the United
States Supreme Court, and the petition was placed on the docket on December 14, 2018 as
No.18-7054. On February 19, 2019 plaintiff's petition was denied.

On March 11, 2019, plaintiff Brenda White, filed a notice of hearing and a motion for relief from
Judgment in the Wayne County Third Circuit Court. The Motion hearing was scheduled for
March 29, 2019, the motion hearing was reset by the court to march 21, 2019. The motion was
reviewed and denied on March 21, 2019, by Judge Leslie Kim Smith, without a hearing, without
a response from the defendants attorneys and without any evidence to support her claim that
this case is without legal merit to continue to cover up a cortisone murder.

On April 10, 2019, plaintiff Brenda White filed an application for leave to appeal in the Michigan
Court of Appeals. Plaintiff also filed a motion to waive fees. On May 30, 2019, plaintiff Brenda
White's motion to waive fees was denied even thought plaintiff's income did not show the
ability to pay. The Michigan court of appeals and The Michigan Supreme Court both used
plaintiff's now deceased husband Joseph White's exempt veterans disability income to cover up
a cortisone murder and to run plaintiff out of court in all of plaintiff's cases. The Court also
abused Joseph White for almost a decade in his own case and did not care what happened to
him.

On July 29, 2019, plaintiff's application for leave to appeal was denied by the Michigan Court of
Appeals on it's own motion. The Michigan Court of Appeals found sanctions of $500.00
warranted on the basis that plaintiff Brenda White's appeal was frivolous and vexatious. The
Michigan Court of Appeals has no proof or supporting documentation to show that plaintiff's
appeal was frivolous or vexatious. The Michigan Court of Appeals has no grounds to assess
sanctions in a cortisone murder case to run plaintiff out of court. On July 29, 2019, defendants
attorneys Linda M. Garbarino, and Robert G Kamenec motion to dismiss and motion for

14.

litigator restrictions were both denied. To add insult to injury the Michigan Court of Appeals,
covered up the murder of plaintiff Brenda White's mother and stated in the order that these
sanctions are imposed without prejudice to the filing of a motion by defendants appellees,
within 21 days of the Clerk's certification of this order, for actual and punitive damages
pursuant to MCR 7.216(C)to recover the amount of actual damages, including reasonable
attorney fees, incurred by defendants-appellees as a result of the vexatious appeal filed by
plaintiff-appellant Brenda White.

To add further insult to injury, on August 19, 2019, defendant Attorney Linda M. Garbarino, for
Harper University Hospital filed a motion for actual and punitive damage with no proof or
evidence. Linda Garbarino, is involved in the cover- up of plaintiff Brenda White's mother's
Cortisone/sepsis murder, and that is a crime. On August 26, 2019, plaintiff filed an answer to
defendant Harper Hospital's motion and once again submitted proof and enough evidence to
show that plaintiff Brenda white's appeal has merit, and that a crime had been committed. On
September 5, 2019, The Michigan Court of Appeals issued another fraud order that states: The
Motion for actual and punitive damages pursuant to MCR 7.216(C) as a result of vexatious
appeal is Granted In Parti to the extent it seeks an award of actual damages and expenses
incurred by Harper University Hospital because of this vexatious appeal. The Motion is
otherwise Denied. This matter is Remanded to the Circuit Court fora determination of actual
damages and expenses, including reasonable attorney fees, incurred by defendant Harper
University Hospital. MCR 7.216(C)(2). We retain no further jurisdiction. Defendants Motion was
not granted by the Wayne County Third Circuit Court.

Sommers Schwartz Law Firm requested and obtained the Medical Records from DR. Wook
Kim, M.D. The records was turned over to plaintiff Brenda White, from her brother Patrick Ford.
In the medical records of DR. Wook Kim, M.D., Bettie Ruth Ford, signed using her correct name
a consent to treatment, and DR. Wook Kim, M.D. treated and billed plaintiff's mother Bettie
Ruth Ford, under two different names. Bettie Ford's insurance was billed under Bettie Ford and
Betty Ford. In the last three months of her life, Aug 12, 2008, September 9, 2008, and October
7, 2008, Dr. Wook Kim, M.D. fraudulently billed plaintiff Brenda White's mother under the
name of Betty Ford, all for the sake of profit, and this is a criminal offense. The Records was
turned over to the court, and to Former Michigan Attorney General Bill Schuette

Plaintiff Brenda White Mother, Bettie Ruth Ford, was a victim, and a lovely human being, who
was taken advantage of by the system. She was murdered after she was continuously injected
with tainted steroids, all for the sake of profit. Attorney Linda M. Garbarino, and attorney

15.

Robert G. Kamenec, asked the court to assist them in covering up the cortisone/ sepsis murder
of plaintiff Brenda White's mother Bettie Ruth Ford, all for the sake of profit. If these attorneys
are not stopped, who will be murdered next. Both attorneys continue to impede justice and
violate public safety.

On Tuesday March 5, 2019, plaintiff's now deceased husband, Joseph White, attended the
court hearing of defendants Glenn Adam Chin, and defendant Berry James Cadden.The
hearing was held in front of Judge Shauna Murphy, at the 53 District Court in Livingston County,
both men were previously charged for the 2012 cortisone meningitis outbreak, that killed and
sickened hundreds of people including plaintiff Brenda White's mother, Bettie Ruth Ford, who
received tainted steroid injections and died in 2008. In February of 2014, Plaintiff Brenda
White, filed a complaint with former Michigan Attorney General Bill Schuette, with
documented proof attached to the complaint. Plaintiff Brenda White, was given a file no. of AG
2014-0069059-A. Plaintiff Brenda White, filed several other complaints with the State Of
Michigan Department of Licensing and Regulatory Affairs. Both Glenn Chin and Berry Cadden
were extradited back to Michigan to face second degree murder charges by former Michigan
Attorney General Bill Schuette. Mr. Schuette, turned the case over to the new Michigan
Attorney General Dana Nessal, and Michigan Assistant Attorney General Gregory J.Townsend.

After the hearing, Plaintiff's husband, Joseph White, was interviewed by fox 2 News,
photographer/editor Labe Waddell, outside of the court room of Judge Shauna Murphy, to
discuss the Brenda Ford White v O.L. Matthews, M.D. case regarding the cover up cortisone/
sepsis murder of Plaintiff Brenda White's Mother. Joseph White, also discussed his case and
Plaintiff Brenda White's other cases with the editor.Fox 2 News aired a story on Tuesday March
5, 2019, and the newscaster was Huel Perkins, and Mr. Perkins, stated two men from
Massachusetts are facing murder charges here in Michigan from deadly meningitis outbreak.
Today they made their first appearance in a Howell courtroom. Pharmacist Glenn Chin and New
England Compound founder Berry Cadden, both already in prison for fraud and conspiracy,
now facing 11 counts of second degree murder. Investigators traced a 2012 outbreak of
meningitis to contaminated steroid injections from the compounding center. Michigan was
among the hardest state hit. Joseph White, telling Fox 2 his mother-in-law, became very sick
after getting the injection and later died. Joseph White, also made a statement on Fox 2 and he
stated when you talk about pharmaceutical, and when you talk about profit over people it's
dangerous, and this is what this case is about. These guys are getting upgraded into a murder
case. I'm trying to get justice for my mother-in-Law and my wife. Newscaster Huel Perkins
added a ending statement and he stated now Glenn and Cadden have assured patients that
the medicine was safe, but used expired ingredients and failed to properly sterilize the drug all
in pursuit of profit.
16.

1

K'

1

*

i

On March 20, 2019, plaintiff Brenda White, and her husband Joseph White, received an email
from Kevin Roseborough, Vice President and News Director at Fox 2 News, that reads: thank
you for contacting us on the steroids story. We are investigating what happened and will be in
touch once we get to the bottom of it. Sincerely, Kevin Roseborough

On June 10, 2019, plaintiff Brenda and Joseph White contacted the office of Attorney General in
Boston Massachusetts, and filed a complaint in regards to plaintiff Brenda White's mother
Bettie Ruth Ford cortisone/ sepsis murder cover up death. The Massachusetts Attorney
General's office responded in a letter stating: Dear Mr. and Mrs. White, we have reviewed the
complaint you filed with the Massachusetts Attorney General's Office The Attorney General's
Office receives inquires and complaints on a daily basis from citizens, police departments and
other governmental agencies. Every such inquiry or complaint is reviewed, and a decision is
made whether to take action on the inquiry or complaint. In some instances, inquires and
complaints raise issues which generally are not handled by this office, do not fall within the
office's jurisdiction, or are more appropriately handled by another agency. Based on the
information provided to us, the Massachusetts Attorney General's office will not be taking
further action with respect to your inquiry. If you wish to pursue this matter, I suggest you
contact the Michigan Attorney General's Office at (517) 335- 7622.1 am sorry that this office
cannot be of further assistance to you in this matter. Sincerely, Ellen Davis, Office of the
Attorney General.

On March 25, 2019, plaintiff hand delivered a letter to Hon. Chief Judge Timothy M. Kenny
from the Wayne County Third Circuit Court in regards to Judge Leslie Kim Smith's order dated
March 21, 2019, in this case. Plaintiff asked the chief Judge to respond in writing to if he is in
agreeance with Judge Leslie Kim Smith's order, where she used threats to try to run a pro se
litigant out of court, and plaintiff asked the chief Judge to respond in writing if he is in
agreeance with judge Leslie Kim Smith's statement in her order that Plaintiff Brenda White,
shall be precluded from filing in the Wayne County Circuit Court any more motions or any other
lawsuits related to this matter without first providing the chief Judge of this court a paper copy
of the motion, brief and all exhibits, and/or Complaint and obtaining leave from the Chief
Judge to e-file a motion in this case ora complaint in a new case. Plaintiff Also, asked the Chief
Judge to respond to Leslie Kim Smith's threats of sanctions where she stated: It Is Further
Ordered that if plaintiff violates this order, she shall be sanctioned for damages including
attorney fees and costs and the motion and/or Complaint will be dismissed. The Chief Judge
was given a copy of Plaintiff's motion for relief from Judgment with exhibits for his review. The
Chief Judge Timothy M. Kenny did not respond to plaintiff Brenda White's letter.

17.

On September 6,2019, Brenda White, filed an application for leave to appeal in the Michigan
Supreme Court. Plaintiff was charged an illegal filing fee, because of a recent fraud order from
the Michigan Supreme Court stating that plaintiff Brenda White, is a vexatious litigator. The
Michigan Supreme Court has no proof or evidence that plaintiff is a vexatious litigator. The
Michigan Supreme Court is involved in covering up the cortisone murder of plaintiff Brenda
White's mother.

On November 5, 2019, plaintiff Brenda White filed a Sworn Statement to Close Unsupervised
Administration in the Wayne County Probate Court, and a proof of service was send By Brenda
White, to interested persons. No objections was filed within 28, days by the interested
persons. On January 22, 2020 a proof of service and a Certificate of Completion was filed in the
Wayne County Probate Court, stating that the Personal Representative appears to have fully
administered the estate.

On January 2, 2020, the Michigan Supreme Court issued another fraud order, denying plaintiff's
application for leave to appeal. This is just another excuse to cover up the murder of plaintiff's
mother, Bettie Ruth Ford, and another attempt to run a pro se litigant out of court. The
■ Michigan Supreme Court has no proof or evidence. This is an abuse of authority. This corruption
must be stopped.

This clearly shows fraud on the court. Fraud upon the court is fraud committed by officers of
the court. The officers of the court are attorneys, judges, and judicial employees, including the
staff of the clerk of the court. Fraud upon the court is types of action designed to interfere with
the proper functioning and decision-making of a court. The attorneys, defendants, and the
judicial machinery itself, conspired to pervert the course of justice. The attorneys and the
defendants knew about the fraud. They had a duty to report and they did not report.

On January 22, 2020, Plaintiff Brenda White, and her husband had a face to face meeting with
Richard Lynch, General Counsel of the Wayne County Third Circuit Court. Mr. Lynch, gave his
permission to tape the conversation. Richard Lynch discussed a normal probate process, Brenda
White, informed Mr. Lynch, that the Brenda Ford White case was not a normal probate process.
Attorney Richard Lynch, stated in an audio recording that he has this error written down to a
civil lawsuit, and he wrote down a wrongful death. Mr. Lynch, also stated the issues you are
talking about are not issues that he would handle. They are outside of his scope of his office.
The audio recording was sent to the Michigan Supreme Court on a flash Drive.

18.

On December 30, 2019, Brenda White, left a message at the news desk of the Macomb Daily
Newspaper in regards to filing a complaint on Jeff Payne, the editor of the Macomb Daily and
Jameson Cook, a reporter from the Macomb Daily. On January 2, 2020, Jeff Payne, called and
Spoke to Brenda and Joseph White. Brenda and Joseph mentioned all cases, but the
BrendaWhite v Southeast Michigan Surgical Hospital and Dr. Gary Docks case and the Brenda R.
White v EDS Care Management LLC and travelers Indemnity Company case was discussed more
at length. Brenda White, asked Jeff Payne, why did reporter Jameson cook, use an audio
recorded conversation between former Macomb County Clerk/ Register of Deeds Karen
Spranger, and Joseph White, and make a fraud statement in the Macomb Daily Newspaper on
Sunday July 8, 2018, that Brenda White, had a case from several year ago, and he did not
mention that Joseph White had a case. Jeff Payne, acted like he did not know that the cases
went to the United States Supreme Court. Jeff Payne, stated give him two weeks.

On February 5, 2019, Brenda White and Joseph White, had a telephone conversation with
Macomb Daily News reporter Jameson Cook, and all of Brenda and Joseph white cases were
mentioned, but Jameson Cook discussed the Brenda White v Southeast Michigan Surgical
Hospital and Dr. Gary Docks; Brenda R. White v EDS Care Management LLC and Travelers
Indemnity company cases more at length. Jameson Cook used a fraud Michigan Court of
Appeals per curium opinion from the Brenda White v Southeast Michigan Surgical hospital and
Dr. Gary Docks case and litigated with Brenda White, like he was an attorney instead of a
reporter. Brenda White, asked Jameson Cook, why did he use an audio recording between
Joseph White and Karen Spranger, and print in the Macomb Daily Newspaper on Sunday July 8,
2018, that Brenda White, had a case from several years ago when he knew that Brenda White,
was still in the court. He responded the statement didn't mean that. Jameson also stated he did
not do Brenda White, story he just mentioned the case, and he regret mentioning the case.
Jameson stated that he did not know anything about Brenda and Joseph White cases. To add
insult to injury the Macomb Daily Newspaper has been intentionally interfering with the
delivery of the newspaper. The carrier has been throwing the paper in the snow, in the street,
under cars, in puddles of melting snow, and has stopped putting the address on the paper.The
Carrier has stopped delivering the paper at the door. This intentional problem has been
reported over and over and over again to the Macomb Daily Circulation Desk, reporter Jameson
Cook, and editor Jeff Payne. All to no avail. Brenda White canceled the Macomb Daily
Newspaper subscription and requested a refund. The customer service department refused to
give Brenda White a refund.

Brenda and Joseph White sent a complaint to WJBK fox 2 news on 9/26/ 2020, regarding the
cover up of their cases. WJBK Fox 2 news did not respond. The complaint was added to their
Roseville Police File, file no. 200009387, and their Macomb County sheriff's office case report,
file no. 2019-00077983.
19.

f

*

rt*

I
i

«

V

i

9

*

On March 19, 2020 plaintiff filed a third petition for writ of certiorari in the United States
Supreme Court, and the petition was place on the docket on March 27, 2020 as No.19-8116. On
June 1, 2020 the petition was denied and not dismissed.

On June 5, 2020 plaintiff Brenda White called Judge Leslie Kim Smith courtroom and left a
message regarding a hearing date. On June 8, 2020 Brenda White called Judge Leslie Kim Smith
Courtroom a second time to get a hearing date to file a motion for relief from Judgment. The
courtroom clerk Kimberly DeLoach picked up the phone and stated in an audio recording: Mrs.
White, I am very well familiar with your case, and based on what the Chief Judge ruled maybe a
year or so ago, that you cannot file any further pleadings regarding this case. Plaintiff Brenda
White responded that was not true. Kimberly stated she was sorry that she could not move
forward with this conversation and abruptly hung up the telephone.

On June 8, 2020 plaintiff Brenda White contacted the Chief Judge Timothy M. Kenny's
Courtroom and spoke to Judge Timothy M. Kenny's Clerk Matthew Johnson. Matthew first
stated that he could not stop Plaintiff from e-filing her motion, and he later stated that there
was a change of plan. Plaintiff Brenda White was blocked from e filing her motion. Plaintiff was
told by the Chief Judge Secretary Matthew Johnson, to send the motion with 83 pages of proof
to his email and he would make copies for the Chief Judge Timothy M. Kenny to review.
Matthew Johnson, sent a fraud order on June 22, 2020 by email to Brenda White from Chief
Judge Timothy M. Kenny, without a motion filed on the docket. Matthew Johnson, stated they
did what they had to do, but you can appeal the decision. Matthew knew that the Michigan
Court of Appeals was going to charge illegal sanctions to continue to cover-up a cortisone
murder. Judge Timothy M. Kenny is not the Judge on the Case he was working with Judge Leslie
Kim Smith to cover up a cortisone murder. This is against the law.

On July 24, 2020 Plaintiff Brenda White filed a delayed application for leave to appeal in the
Michigan Court of Appeals because the court sent the Application back two times demanding
the plaintiff pay the court a total of 1, 500.00 in sanctions for all three of her cases at the same
time to cover up crimes. After the Court of Appeals took the money for illegal sanctions, on
October 29, 2020 the court denied the motion and continues to assess illegal sanction of
$500.00 for each one of plaintiffs cases to continue to cover up crimes, and run Brenda White
out of court. Michigan Court of Appeals docket no. 354308.

20.

On December 2,2020 Plaintiff filed an application for leave to appeal in the Michigan Supreme
Court, docket no. 162310, on March 30, 2021, the Michigan Supreme Court has continued to
call Brenda White a vexatious litigator after the case went to the United States Supreme Court
and printed. The court could not run Brenda White out of court, so the court started using laws
that don't apply to none of Brenda White's cases or her now deceased husband Joseph White's
case regarding Detroit East Community Health Provider et al. The illegal sanction laws are used
to illegally run Brenda White out of court with a cortisone murder case to cover up a crime.

On Monday July 6, 2020, plaintiff's Mother Bettie Ruth Ford's cortisone/sepsis murder was
reported to the CDC by Brenda and her now deceased husband Joseph White. All of their cases
was reported to the CDC. On October 26, 2020 the CDC responded by email after plaintiff and
husband contacted the CDC a second time with a three page document to plaintiff Brenda
White and her husband Joseph White. Complaint No CDC-775844-B3X6V4 ( exhibit A attached)

On October 27, 2020, plaintiff Brenda White and her husband sent the CDC an email asking
them to make corrections in the email that was sent to them on October 27, 2020 by email,
(exhibit B attached).

The CDC responded by email on Oct. 27, 2020 asking plaintiff Brenda White and her husband to
elaborate further on their questions after Brenda White emailed the corrections to the CDC on
October 27, 2020. (exhibit C attached) Brenda White contacted the CDC by telephone asking
them to make the corrections, the CDC did not make the corrections.

Michelle M. Brya Division Chief from Licensing and Regulation Division sent Brenda and Joseph
White an email on October 29, 2020, regarding Citizen inquiry # 2020-0294519-A. The letter
states that Attorney General Dana Nessel has asked her to reply to our request that the
Attorney General intervene in several cases that we are a party to in various Michigan Courts
and tribunals. The law does not permit the Attorney General to provide legal services to private
individuals or intervene on your behalf in specific cases. Accordingly, you may wish to contact a
private attorney for advice regarding legal remedies available to you. ( exhibit D attached).

21.

To talk about a pattern of corruption plaintiff Brenda White and her now deceased husband
Joseph White, who had a sudden departure died February 7, 2021. Joseph suffered the same
type of abuse from the Judicial system and the same attorneys that his wife Brenda White did.
Joseph White was a Master level Social Worker (LLMSW) and a Vietnam Veteran who had a
duty to report corruption, he reported to the News, the Governor of Michigan, the Michigan
Attorney General, the police, and others. Joseph was a plaintiff in the Detroit East Community
Mental Health, Marilyn Snowden, Shirley Calhoun, Doris Sterrett, and Gateway Community
Health Provider case. Joseph White continued his case as the plaintiff all the way until his time
of death. Joseph filed his case on September 12, 2011 in the Wayne County Third.Circuit Court,
and he was taken advantage of, ignored, retaliated against, called a vexatious litigator, charged
illegal filing fees and ran through the courts for almost a decade. Two of the defendants died
and now Joseph white the plaintiff is deceased. Joseph White, had also filed a petition for Writ
of Certiorari four times in the United States Supreme Court, his last petition was filed on April
17, 2020, and placed on the United States Supreme Court docket on May 5, 2020 as No. 198398. Joseph had filed an application for leave to appeal in the Michigan Court of Appeals as
docket no. 355827. Joseph wife Brenda White reported to the court that Joseph had passed,
the Court sent a letter stating if you desire to proceed with the appeal you must file a motion to
substitute the estate of Joseph White as the appellant. Failure to file the motion will result in
the appeal being dismissed as there is no longer an aggrieved party to go forward. MCR
2.202(A) and MCR 7.203(A). The estate has been open in Macomb County Probate Court case,
file no. 2021-237107-DE, Brenda White, named personal representative of the estate. The
motion to substitute the estate has been filed by Brenda White in the Michigan Court of
Appeals. All of this could have been avoided if the case was handled correctly while Joseph was
alive. Joseph was being ran through the courts and charged illegal sanctions in a case with a
cause of action.

Brenda and Joseph White sent a second complaint to the attorney Genera Dana Nessel on
June 11, 2020, The attorney General's Office had informed Brenda and Joseph White that
attorney Richard L. Cunningham was the attorney handling the complaint. On March 9, 2021,
Richard L. Cunningham, Assistant Attorney General, from the Criminal Trials and Appeals sent
a letter by email to Brenda White after Brenda White informed him that Joseph White was
deceased. The second paragraph states: you have asked the Attorney General to represent
you/or intervene on your behalf in several Civil legal claims and administrative proceedings.
You have also requested that we initiate criminal proceedings against several judges, attorneys,
adverse parties, public officials and others who refuse to grant you the relief you request. We
have reviewed your assertions several different times, but it is clear that there is no valid basis
for us to act. Forth and last paragraph states: I wish to make it clear. We have closed the files
on any and all complaints you have filed and will not be taking any action.
22.

We are not conducting any type of investigation on the matters you raised. We consider the
matters at an end. Sincerely, Richard L. Cunningham, (exhibit E attached).

Whenever any officer of the court commits fraud during a proceeding in the court, he/she is
engaged in " fraud upon the court. "In Bulloch v United States, 763 F. 2d 1115,1121 (10, Cir.
1985), the court stated "Fraud Upon the court" is fraud directed to the Judicial machinery itself
and is not fraud between the parties or fraudulent documents, false statements or perjury. ...It
is where the court or a member is corrupted or influenced or influence is attempted or where
the judge has not performed his judicial function —thus where the impartial functions of the
court has been directly corrupted/' "Fraud upon the court" has been defined by the 7th Circuit
Court of Appeals to "embrace that species of fraud which does, or attempts to defile the court
itself, oris a fraud perpetrated by officers of the court so that the judicial machinery can not
perform in the usual manner its impartial task of adjudging cases that are presented for
adjudication. " Kenner V C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512H
60.23. The 7th Circuit further stated " a decision produced by fraud upon the court is not in
essence a decision at all, and never becomes final. "Fraud upon the court" makes void the
orders and judgments of the court. It is also clear and well- settled Illinois law that any attempt
to commit "Fraud upon the court" vitiates the entire proceeding. The people of the state of
Illinois v Fred E. Sterling, 357 III. 354; 192N.E. 229 (1934) (" The maxim that fraud vitiates every
transactions into which it enters applies to judgments as well as to contracts and other
transactions."); Allen F. Moore v. Stanley F. Sievers, 336 III. 316;
168 N.E. 259 (1929)(The maxim that fraud vitiates every transaction into which it enters"...) In
re village of Willowbrook, 37 III. App. 2d 393 (1962) ("It is axiomatic that fraud vitiates
everything".); Dunham v Dunham, 57 III. App. 475 (1894), affirmed 162 III. 589 (1896); Skelly
Oil Co. v Universal Oil Products Co., 338 HI. App 79, 86 N.E. 2d 875, 883-4 (1949); Thomas
Stasel v. The American Home Security Corporation, 362 III. 350; 199 N.E. 798 (1935) Under
Illinois and Federal law, when any officer of the court has committed "fraud upon the court "
the orders and the judgment of that court are void, of no legal force or effect.

Courts have repeatedly held that positive proof of the partiality of a judge is not a requirement,
only the appearance of partiality. Liljeberg v health Services Acquisition Corp., 486 U.S. 847,
108 S. Ct. 2194 (1988) ( what matters is not the reality of bias or prejudice but it's
appearance); United States v Balistrieri, 779 F. 2d 1191 ( 7th Cir. 1985) (Section 455(a) " is
directed against the appearance of partiality, whether or not the judge is actually biased."
("section 455(a) of the Judicial Code, 28 U.S.C §455(a), is not intended to protect litigants from
actual bias in their judge but rather to promote public confidence in the impartiality of the
judicial process.").
23.

The court also stated that Section 455(a) "requires a judge to recuse himself in any proceeding
in which her or his impartiality might reasonability be questioned. " Taylor v. O'Grady, 888 F.2d
1189 (7th Cir. 1989). In Pfizer Inc. v Lord 456 F.2d 532 (8th Cir. 1972), the court stated that " It is
important that the litigant not only actually receives justice, but that he believes that he
received justice."

The supreme court has ruled and has reaffirmed the principle that " justice must satisfy the
appearance of justice "Levine v United States, 362 U.S. 610, 80 S. Ct. 1038 (1960), citing Offutt
v. United States, 348 U.S. 11,14, 75 S. Ct. 11,13 (1954). A judge receiving a bribe from an
interesting party over which he is presiding, does not give the appearance of justice. Recusal
under Section 455 is self - executing; a party need not file affidavits in support of recusal and
the judge is obligated to recuse herself or himself sua sponte under the stated circumstances."
Taylor v. O' Grady, 888 F. 2d 1189 (7th Cir. 1989). Further, the judge has a legal duty to
disqualify himself even if there is no motion asking for his disqualification. The Seventh Circuit
Court of Appeals further stated that " We think that this language (455(a) imposes a duty on
the judge to act sua sponte, even if no motion or affidavit is filed. "Balistrieri, at 1202. Judges
do not have discretion not to disqualify themselves. By law, they are bound to follow the Law.

Should a judge not disqualify himself as required by law, then the judge has given another
example of his "appearance of partiality " which, possibly, further disqualifies the judge. Should
another judge not accept the disqualification of the judge then the second judge has evidenced
an "appearance of partiality" and possibly disqualified himself/herself. None of the orders
issued by any judge who has been disqualified by law would appear to be valid. It would appear
that they are void as a matter of law, and are of no legal force or effect. Should a judge not
disqualify himself, then the judge is violation of the Due Process Clause of the U.S.
Constitution. United States v Sciuto, 521 F. 2d 842 845 (7th Cir. 1996) (" The right to a tribunal
free from bias or prejudice is based, not on section 144, but on the Due Process Clause.")

If you are non- represented litigant, and should the court not follow the law as to nonrepresented litigants, then the judge has expressed an "appearance of partiality" and, under
the law, it would seem that he/she has disqualified him/herself. Flowever, since not all judges
keep up to date in the law, and since not all judges follow the law, it is possible that a judge
may not know the ruling of the U.S. Supreme Court and the other courts on the subject. Notice
that it states "disqualification " is required and that a judge must be disqualified" under certain
circumstances.
24.

The Supreme Court has also held that if a judge wars against the constitution, or if he acts
without jurisdiction, he has engaged in treason to the constitution. If a Judge acts after he or
she has been automatically disqualified by law, then he or she is acting without jurisdiction and
that suggest that he is then engaging in criminal acts of treason, and may be engaged in
extortion and the interference with interstate commerce. Courts have repeatedly ruled that
judges have no immunity for their criminal acts. Since both treason and the interference with
interstate commerce are criminal acts, no Judge has immunity to engage in such acts.

REASONS FOR GRANTING THE PETITION

The Jurisdiction of this court is invoked under 28 U.S.C. § 1257(a).

The effect of corruption has many dimensions related to the political, economic, social and
environmental effects. In political sphere, corruption impedes democracy and the rule of law. In
a democratic system, public institutions and offices may lose their legitimacy when they misuse
their power for private interest. Corruption may also result in negative consequences such as
encoring cynicism and reducing interest of political participation, political instability, reducing
political competition, reducing the transparency of political decision making, distorting political
development and sustaining political activity based on patronage, clientelism and money, etc.

In our society, the impact of corruption is often manifested through political intolerance,
problems of accountability and transparency to the public, low level of democratic culture,
principles of consultation and participation dialogue among others.

The economic effects of corruption can be categorized as minor and major. However, both in
one way or the other have serious impact on the individual community and country. First and
foremost, corruption leads to the depletion of national wealth. It is often responsible for
increased costs of goods and services, the funneling of scarce public resources to uneconomic
high profile projects at the expense of the much needed projects such as schools, hospitals and
roads, or the supply of potable water, diversion and misallocation of resources, conversion of
public wealth to private and personal property, inflation, imbalanced economic development
weakening work ethics and professionalism, hindrance of the development of fair in market
25.

structures and unhealthy competition there by deterring Competition. Large scale corruption
hurts the economy and impoverishes entire population.

In social sphere, corruption discourages people to work together for the common good.
Frustration and general apathy among the public result in a weak civil society. Demanding and
paying bribes become the tradition. It also results in social inequality and widened gap between
the rich and poor, civil strive, increased poverty and lack of basic need like food, water and
drugs, jealousy and hatred and insecurity.

Closer to home, corruption is said to have been factors for the down fall of past regimes by
way of undermining the legitimacy of the governments and weakening their structures,
reducing productivity, hindering development, worsening poverty, marginalizing the poor,
creating social unrest and then to their downfall.

CONCLUSION
For the reasons stated in this petition for writ of certiorari, petitioner Brenda Ford White prays
this Court issue a writ of certiorari.

Date: June

h

,2021

26.

- \\

